<html>
<title> - THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S EMERGENCY FOOD SUPPLY SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S EMERGENCY FOOD SUPPLY SYSTEM

=======================================================================

                                (110-30)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 20, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                    U.S. GOVERNMENT PRINTING OFFICE
34-802                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page
Summary of Subject Matter........................................    vi

                               TESTIMONY

Glasco, Larry, Deputy Director, Logistics Operations and 
  Readiness, Defense Logistics Agency............................     4
Johnson, Vice Admiral Harvey, Deputy Administrator, Federal 
  Emergency Management Agency....................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    27
Graves, Hon. Sam, of Missouri....................................    28
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    33
[GRAPHIC] [TIFF OMITTED] T4802.001

[GRAPHIC] [TIFF OMITTED] T4802.002



  HEARING ON THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S EMERGENCY FOOD 
                             SUPPLY SYSTEM

                              ----------                              


                        Friday, April 20, 2007,

                  House of Representatives,
     Committee on Transportation and Infrastructure
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the committee] presiding.
    Ms. Norton. Good morning. I am pleased to open this 
morning's hearing on FEMA's Emergency Food Supply System.
    Our Subcommittee began what is intended to be a vigorous 
oversight agenda on FEMA and FEMA-related issues by working 
with the Democratic leadership and quickly passing out of 
Committee H.R. 1144, the Hurricanes Katrina and Rita Federal 
Match Relief Act of 2007, to provide significant relief for 
communities devastated by Hurricanes Katrina, Rita and Wilma, 
and focus on unaddressed concerns since these disasters.
    An amended form of the legislation is included in the 
emergency supplemental appropriations that passed the House and 
the Senate and will go now to conference.
    We also collaborated with the Committee on Financial 
Services on H.R. 1227, the Gulf Coast Hurricane Housing 
Recovery Act of 2007, to ensure that the legislation allows 
Louisiana to use its hazard mitigation program funds for its 
Road Home program. These protections were included in the 
legislation that passed the House last month.
    Following our recent hearing on post-Katrina housing, our 
Subcommittee today holds another in a series of oversight 
hearings on FEMA issues. As part of this Subcommittee's 
jurisdiction over FEMA operations and programs, we are 
especially interested in and will conduct oversight on all 
aspects of the so-called ``new'' FEMA.
    This morning we will focus on FEMA's distribution system, 
especially distribution of perishable items, an issue that was 
addressed in last summer's FEMA reform legislation. According 
to the recently-passed Post-Katrina Emergency Management Reform 
Act of 2006, FEMA is required to develop an ``efficient, 
transparent and flexible logistics system.'' Yet recently, the 
press reported that $70 million in food aid was lost or had to 
be distributed for unintended purposes due to a failure of 
logistics.
    With negative press reports concerning the availability of 
trailers when they are needed and disposal of trailers that are 
stored, and now new food distribution and storage issues, it is 
fair to ask whether the new FEMA is any different from the old 
FEMA. The public witnessed the tragic breakdown of FEMA 
operations. And the public will not be convinced that there is 
anything new unless news accounts concerning problems in FEMA's 
operations cease.
    In 2005, FEMA was soundly criticized for not anticipating 
what should be done, not doing enough and not doing it fast 
enough in response to Hurricane Katrina. In 2006, FEMA was pro-
active in participation of what was predicted to be an active 
hurricane season. That did not occur.
    Surely, however, professional emergency experts should have 
anticipated, even hoped that weather predictions would not be 
accurate. Any citizen who follows daily weather predictions 
knows that the nature of weather movements causes these reports 
to frequently miss the mark on a daily basis. Consultation with 
the National Oceanic and Atmospheric Administration, on which 
FEMA relies, would confirm the difficulty inherent in 
predicting an entire season of weather. Not preparing proved to 
be tragic.
    Over-preparing, without sufficient plans for storage and 
timely and appropriate disposal of perishable supplies, wasting 
millions in taxpayers' funds, is unprofessional. We are 
distressed about what the problems highlighted by FEMA's 
emergency food supply system indicate about FEMA's entire 
logistics response system. There has been more than enough time 
and telling experience to expect that the new FEMA logistics 
system will be state of the art, anchored in comprehensive 
logistics and materials management expertise.
    I am particularly interested in hearing from the Defense 
Logistics Agency regarding its distribution system, and about 
its partnership with FEMA, something one would have assumed 
would be automatic, given their experience.
    Moreover, FEMA failed to accurately report the facts 
concerning the food supply systems failure, specifically a 
press statement in last Saturday's newspaper by a FEMA 
spokesman, who had to correct what he had said the day before. 
Specifically, he said, ``In the process of standing up the new 
logistics directorate, some of the information was mis-handled 
and inappropriately directed to FEMA leadership,'' for whatever 
that means.
    If the agency cannot effectively determine what kind of 
food was stockpiled last summer, or what it did with it, how 
can FEMA track and supply commodities in the middle of a 
hurricane? My fear is that this is symptomatic of a brain drain 
at FEMA, where experienced emergency managers have left and the 
morale of employees is reportedly at serious lows.
    The Subcommittee has received a lengthy letter from the 
American Federation of Government Employees detailing troubling 
personnel hiring, morale and other issues. Replacements by 
well-intentioned people who nonetheless have little or no 
experience in emergency management only assures a redux of the 
old FEMA.
    We welcome today's witnesses and look forward to a hearing 
that will add to the Committee's body of knowledge and that 
will enable us to assist the agency, and the agency to help 
itself live up to its marketing as the new FEMA.
    I would like to ask the Ranking Member, Mr. Graves, if he 
has an opening statement.
    Mr. Graves. Thank you, Madam Chair, and thank you for 
holding this hearing on FEMA's logistics and commodity 
distribution system. I look forward to learning about FEMA's 
efforts to develop a 21st century logistics system that I see 
will dramatically reduce Government waste and improve disaster 
response.
    I am a fiscal conservative. One of the many appalling 
aspects of the response to Hurricane Katrina was the tremendous 
waste and high prices that Government paid for supplies and 
services. The American taxpayer paid too much during Hurricane 
Katrina because the Government did not have the systems or 
contracts in place to manage a disaster of that scale. Instead, 
massive contracts were let in the middle of a crisis, and the 
American taxpayer paid dearly for supplies and services.
    After Hurricane Katrina, the House conducted an exhaustive 
review of what went wrong with the Government's response to 
that terrible storm. One of the key findings was that FEMA 
lacked an effective logistics system for delivering critical 
commodities and equipment to the right place at the right time.
    Once a truck entered into the disaster zone, FEMA had 
little idea where it was or when it would arrive at its final 
destination. As a result, there was significant waste and human 
suffering as critical supplies reached their destination late 
or they didn't reach at all.
    During the 2006 hurricane season, FEMA's outdated logistics 
system once again cost the taxpayer too much money. In this 
case, FEMA's inability to procure and deliver large quantities 
of food in a fast and efficient manner compelled FEMA to 
stockpile roughly 30 million means in hurricane-prone States.
    When the National Hurricane Center's prediction of another 
record-breaking hurricane season failed to materialize, FEMA 
was forced to donate about $70 million in food to Second 
Harvest before its shelf life expired. Fortunately, FEMA was 
able to put those meals to good use rather than discard them.
    The potential savings from the 21st century logistics 
system are considerable. Improved asset visibility and just in 
time meal delivery will enable FEMA to scale back its 
inventories, save on storage costs and avoid expired 
commodities in the future. More importantly, a modern logistics 
system will enable FEMA to deliver critical supplies and 
equipment where and when they are needed, thus saving lives and 
reducing suffering.
    There is an old Army saying that amateurs study tactics, 
but professionals study logistics. In many ways responding to a 
catastrophic disaster is like fighting a war, and logistics are 
the key to winning. I believe it is safe to say that our 
efforts to modernize FEMA's logistics are one of the top five 
priorities of the FEMA reform bill our Committee enacted last 
year. This Committee has had a long history with FEMA, and I 
want you to know that we want you to succeed. I do believe 
that. We are here to help you.
    Again, I would like to thank the witnesses for coming in on 
short notice and for being here today, and I look forward to 
hearing the testimony.
    Thank you, Madam Chair.
    Ms. Norton. Does any other member of the Subcommittee have 
a statement?
    Mrs. Capito. No, I don't. I will just listen to the 
testimony and ask questions. Thank you.
    Ms. Norton. I understand that Mr. Paulison was invited to 
be a witness. I understand that he is the head of the agency, 
and I am pleased to have you, Mr. Johnson, here. You need to 
tell Mr. Paulison, and you need to report in some detail to Mr. 
Paulison concerning this hearing. I am sorry he could not be 
here. We felt we had to have this hearing, particularly after 
repeated reports concerning this question. Now our fear is that 
we are approaching a new season.
    So I hope you are prepared to give the same kinds of 
assurances that I would expect from Mr. Paulison. We would like 
to hear first from Vice Admiral Harvey Johnson, who is the 
Deputy Administrator, and then we are pleased also to have Mr. 
Larry Glasco, who is the Deputy Director of Logistics 
Operations and Readiness of the Defense Logistics Agency.
    Mr. Johnson.

TESTIMONY OF VICE ADMIRAL HARVEY JOHNSON, DEPUTY ADMINISTRATOR, 
   FEDERAL EMERGENCY MANAGEMENT AGENCY; LARRY GLASCO, DEPUTY 
DIRECTOR, LOGISTICS OPERATIONS AND READINESS, DEFENSE LOGISTICS 
                             AGENCY

    Admiral Johnson. Good morning, Madam Chairwoman and members 
of the Subcommittee. I am Harvey Johnson, I am the Deputy 
Director and Chief Operating Officer for the Department of 
Homeland Security's Federal Emergency Management Agency.
    I am here today to address the concerns that have been 
raised about FEMA's ability to account for all the food 
commodities that it had on hand in preparation for the 2006 
hurricane season. As well, I would like to describe for you the 
actions that FEMA is taking to improve our logistics management 
capabilities.
    The forecast for the 2006 hurricane season produced very 
heavy activity: 13 to 16 named storms, 8 to 10 that 
strengthened into hurricanes, including 4 to 6 major 
hurricanes. With that forecast in mind, FEMA assessed its 
inventory, and after planning and coordination with 11 
hurricane impact States, FEMA identified the need to procure 
additional meals to add to its existing foodstocks left over 
from the 2005 hurricane season.
    Our combined foodstocks then consisted of pre-packaged 
meals, chiefly of two types, examples of which I have here 
today. The first type is a commercial shelf life stable meal, 
which is a pre-packaged meal that contains items you might find 
on your grocery store shelf. When properly stored, these meals 
have a shelf life of six to nine months.
    The second type, meals ready to eat, MREs, typically 
contain a full meal, ready to eat, replete with entree, side 
dish and dessert. Depending on the storage conditions, these 
meals have a shelf life of between 36 and 60 months. MREs come 
in both military commercial versions, and we buy each. The 
difference between the two primarily is the package is not as 
sturdy, and a commercial MRE is lower in calories. All of these 
meals are stored in a variety of FEMA-maintained and commercial 
storage facilities located throughout the ten FEMA regions in 
our Nation.
    This sizeable inventory of disaster food supplies was 
strategically positioned for rapid and effective response 
during the hurricane season. We were ready to respond to four 
to six major hurricanes. Yet as nature gracefully played out in 
2006, only one relatively minor storm, Hurricane Ernesto, made 
landfall. The forecast was incorrect.
    Though thankful for a mild hurricane season, FEMA was left 
with an unusually large inventory of unused, unpackaged ready 
to eat meals. And like the milk in the refrigerator, each of 
these meals comes with an expiration date. In some cases, the 
date was such that the meals could last through the 2007 
hurricane season. These meals have been put back into storage 
for use this coming summer.
    However, nearly 13 million meals, valued at $70 million, 
were very close to expiring. Those meals would not have lasted 
for another hurricane season.
    At that point, FEMA had two choices. We could dispose of 
the meals, or we could find another use consistent with our 
initial purpose. FEMA donated these meals to Second Harvest, 
which is a community support organization that distributes food 
to those in need of assistance. With them, we have an 
established relationship just for this type of scenario.
    While the Post considered these meals as lost, FEMA 
considers them as found, and that by our donation they found 
value as welcome food supplies for those in need. That said, 
there was one loss during the season that was preventable and 
regrettable, and that was the spoilage of some meals that were 
regrettably stored in overheated containers. I am truly sorry 
for this error in managing our inventory.
    Yet even this incident reflects the challenge of planet 
against nature to maintain a mobile, ready and sufficient 
inventory of food and licensed commodities against 11 hurricane 
impact States from June through November.
    The most important benefit we received from our experience 
in the 2006 hurricane season was four principal lessons 
learned. First, we will only stock MREs and will no longer 
stock commercial shelf life stable meals. While these meals are 
appropriate when purchased for immediate use, it is not a wise 
investment to stock them in anticipation of an uncertain 
forecast.
    Second, there is value in an established partnership with 
DLA and other public and private sector logistics experts. 
Having a revolving stock of fresh MREs in a DLA warehouse 
demonstrates good value. FEMA need not carry the full cost of 
disaster logistics alone.
    Third, it is important to have ready access to alternative 
food supplies. MREs are an excellent option for immediate 
response purpose. But at 3,000 calories per meal, they are 
better suited for 18 to 35 year old soldiers than for 8 to 85 
year old disaster victims.
    Fourth, we simply can't store perishable food supplies in a 
metal box exposed to the heat of the sun along the Gulf Coast. 
We must be more attentive to how we store our pre-positioned 
commodities.
    As we plan for this upcoming hurricane season, we will 
apply these lessons learned in three specific ways. First, we 
are evaluating the forecast for the 2007 season, refining our 
models for food consumption. The University of Colorado, Dr. 
Gray, predicts a very active season, with 17 named storms, 9 
hurricanes, including 5 major storms. We are starting out our 
season with 12.8 million meals, significantly less than the 
31.5 million meals with which we began the 2006.
    Second, we will expand on strategic partnerships with DLA 
and have a commercial contract available in the event that we 
need a short-term supply of alternatives to the MRE. Finally, 
we are going to take better care of our commodities. We will 
know where they are and how they are being stored every day and 
be better able to put them in the right place just as they are 
needed.
    Madam Chairwoman, FEMA is building a 21st century logistics 
system that will be better managed by a new cadre of 
experienced leaders, better supported by technology, 
strengthened by strategic partnerships and reflective of 
additional resources that we have requested in the President's 
fiscal year 2008 budget. This is a logistics system that will 
gain your confidence and that of the American public.
    With that, I would be pleased to answer any questions you 
may have.
    Ms. Norton. Thank you, Mr. Johnson.
    Mr. Glasco.
    Mr. Glasco. Thank you, Madam Chairman, members of the 
Subcommittee. I am Larry Glasco, Deputy Director of Logistics 
Operations and Readiness at the Defense Logistics Agency, or 
DLA.
    My purpose today is to talk to you about DLA, our 
relationship with FEMA and the food supply that we provide to 
FEMA. DLA's mission is to function as an integral element of 
the military logistics system of the Department of Defense and 
provide effective and efficient world-wide logistics support 
for the military departments and the combatant commanders under 
conditions of peace and war as well as other DOD components and 
federal agencies like FEMA.
    DLA is responsible for the procurement, management, storage 
and distribution of some 5 million items that we manage. We 
provide food, fuel and medical items, as well as most of the 
clothing, construction materials and spare parts for worldwide 
support of this Country's land, sea and airborne platforms and 
weapons systems, and the forces that operate and sustain them. 
Our number one priority is logistics support to the American 
warfighter.
    We also work increasingly closely with Northern Command, or 
NORTHCOM, and FEMA to provide the specific elements of relief 
and recovery support during natural and/or man-made disasters. 
In coordination with NORTHCOM, we are prepared to respond to 
DOD requests for logistics support; that is, for supplies and 
related services from other Federal agencies, such as FEMA And 
when authorized by law from State and local government 
organizations, such as in response to the deadly hurricanes 
that ravaged the Gulf States.
    DLA's support capabilities are reflected in domestic 
disaster plans. We are an active partner in disaster 
preparation exercises. With specific regard to FEMA, our 
relationship is defined by an inter-agency agreement signed in 
March, 2006, between FEMA and DLA, which outlines the items we 
manage and may provide to FEMA in preparation for, during and 
after domestic disasters.
    Upon receipt of a funded requirement, DLA can provide FEMA 
with those items for which we are the material manager. These 
include basic human comfort items like clothing, food, water, 
medical supplies, tents, cots, generators, fuel, et cetera. DLA 
coordinates these requirements with FEMA headquarters, which 
then directs distribution of these items from DLA sources to 
the locations where FEMA determines they are required.
    Following the joint signature of the inter-agency agreement 
in March 2006, as part of preparations for the hurricane 
seasons in 2006 and 2007, FEMA allocated approximately $91 
million for the following DLA-managed items: approximately 
$60.7 million for subsistence items; approximately $14 million 
for medical supplies; approximately $7.3 million for clothing 
and textiles; and approximately $9 million for construction and 
equipment items.
    I will focus on the types of meals DLA has provided FEMA: 
military MREs, commercial shelf stable meals and commercial 
MREs. Probably the most familiar to you is the military MRE, 
which is used to support military requirements. DLA manages a 
wide variety of MRE entrees, and part of our management process 
is to rotate stock to ensure use before expiration date.
    The next type of meal, the commercial shelf stable meal, is 
like a pre-assembled lunch. It is less costly than an MRE and 
has a shelf life of six to nine months when properly 
maintained. DLA provided the contractural vehicles for FEMA to 
obtain commercial shelf stable meals for Katrina support.
    The third type of meal, the commercial MRE, was the 
commercial sector response to the civilian desire for MREs. The 
majority of commercial MREs will be assembled on demand by 
vendors and are not a DLA-stocked item. To ensure that we 
maximize their usability, they are ordered only when required 
and delivered directly from the vendor. We have contracts in 
place that allow a surge of requirements when needed. In the 
event of an emergency, FEMA's strategy is to start with the 
military MRE, then move to commercial MRE, since it has the 
same shelf life as a military MRE and similar nutritional 
value.
    DLA has leveraged our capabilities to help support FEMA's 
mission. For example, today, we have increased our MRE stock on 
hand to make MREs available to FEMA subject to DOD mission 
priorities and subject to our normal stock rotation program. 
The commercial MREs are another example of how we worked 
together to develop a solution and put surge contracts in place 
to meet emergency requirements.
    We are continually working with FEMA to help plan their 
support. Earlier I mentioned the interactions we have in 
planning the disaster support exercises. We also meet with FEMA 
every other week on phone conferences, and have a senior level 
customer account representative assigned to the Department of 
Homeland Security to ensure we have planned and prepared for 
any contingency.
    In conclusion, DLA has a well-defined role to play in 
assisting FEMA in preparing for and responding to contingency 
situations. I believe that our work together has resulted in a 
strong partnership, better logistics support of disaster 
relief, and ever-improving stewardship of related resources for 
the American taxpayer.
    This concludes my statement. I would be happy to answer any 
questions you or the other members of the Committee may have.
    Ms. Norton. Thank you very much, Mr. Glasco.
    Did you advise, or did the DLA advise FEMA with respect to 
the foods it stored for the last hurricane season?
    Mr. Glasco. No, ma'am. What we did is, working with FEMA 
for the 2005 hurricane season, when there was a potential that 
we would------
    Ms. Norton. I am talking about 2006. This is when the food 
was pulled. I am asking whether or not you worked with FEMA 
during that hurricane season or advised them in any way 
concerning the distribution and storage and acquisition of 
food.
    Mr. Glasco. For 2006, our primary interaction with FEMA was 
associated with MREs and commercial MREs, not with the 
commercial shelf stable meals.
    Ms. Norton. Mr. Johnson, you do not deal with commercial 
shelf meals?
    Admiral Johnson. We do, Madam Chairwoman, but the 
commercial shelf life stable meals were acquired for us in 
2005, and initially to respond to Katrina, Wilma and Rita 
support. Then those were retained by FEMA for the upcoming 2006 
hurricane season.
    Ms. Norton. So you speak of a partnership. I am just trying 
to establish when a partnership began, given that there was 
some lost food, and that DLA has considerably more experience 
that it could share with FEMA and other agencies.
    Mr. Glasco. The partnership officially was established in 
March 2006, when we signed the inter-agency agreement between 
FEMA and DLA.
    Ms. Norton. So did that agreement take into account the 
supplies that FEMA brought, both commercial supplies, MREs, did 
they ask for your advice on all of the supplies, and did you 
offer such advice? Who approached who to get this partnership 
going? Did you approach FEMA or did FEMA approach you?
    Mr. Glasco. We approached FEMA in November of 2005 to get 
the partnership underway.
    Ms. Norton. So by the time of the hurricane season, there 
was a partnership? You have the, well, let me put it this way. 
FEMA appears to have acted like a start-up agency here. It made 
decisions that one would not expect of an experienced agency, 
or at least an agency with experienced personnel. So I am 
trying to find out, since DLA has some experience around the 
world, what kind of relationship exists, if in fact it existed 
at the time that the foods and types of foods were purchased. 
Whose expertise are you relying on, Mr. Johnson?
    Admiral Johnson. Madam Chairwoman, perhaps let me try a 
description and see if it answers your question. Prior to 
Katrina, where FEMA responded to relatively small disasters, we 
were able to manage our requirement and our inventory and the 
system flowed and it seemed to work okay.
    Post-Katrina, when the requirement was significantly 
increased, it got a little bit out of our comfort zone. For 
example, in the middle of the 2005 hurricane season, as you 
recall, in the 2005 hurricane season, we went beyond the 
alphabet. We went beyond Wilma, went to Alpha Alpha, Bravo 
Bravo, Charlie Charlie, and it was a huge hurricane season.
    In August of that season, NOAA increased their forecast for 
storms. FEMA was nervous about not having enough supplies. We 
went to DLA, and at that time DLA was supporting a large effort 
and could not give MREs, could not sell MREs because they were 
at their war limit. So we bought these commercial shelf life 
meals. We knew they had a short shelf life, but this was, with 
five to seven storms continued for that hurricane season. As it 
turned out, Wilma required very few MREs.
    Ms. Norton. In other words, you bought enough food for the 
entire season at one time?
    Admiral Johnson. We bought enough food for what we thought 
was going to be an extended 2005 season.
    Ms. Norton. Why did you buy food for the entire season, 
rather than, for example, at full term contracts? When you 
might have brought in some food, based on weather reports, 
buying food which had shelf life for the entire season would 
seem not only unnecessarily but predictably wasteful.
    Admiral Johnson. We did not buy for the whole season. We 
bought what we thought was required for the rest of the season. 
When DLA watched what FEMA was doing, the decision made at the 
time I think was a good decision. But from that point on, from 
September on, it did not, even the changed forecast did not 
turn out to hold true. But we bought supplies for the rest of 
the season, not for an entire season.
    Ms. Norton. Whether it is the rest of it, or what are you 
calling the rest of the season? How many months?
    Admiral Johnson. In September, the season runs through 
November. So we still had September, October, November to go, 
three months to go.
    Ms. Norton. What I am trying to do is see if you have a 
``logistics'' system or whether or not you simply buy because 
you think you might be caught without enough food. I could do 
that. The real expertise is, of course, in calculating what is 
needed or, as the old folks say, ask somebody. If you don't 
have the expertise in the agency in trying to find out, since 
this relationship existed, and since they have the experience.
    Admiral Johnson. Well, Madam Chairwoman------
    Ms. Norton. Well, let me ask Mr. Glasco. Would your agency 
rely on short-term contracts sometimes and longer term 
contracts at others?
    Mr. Glasco. Yes, Madam Chairwoman, we would.
    Ms. Norton. It does seem to me, I am speaking with no 
expertise, that yes, you want to be able to have enough food. 
You also know, if you are an expert, that hurricanes don't 
happen simultaneously at the same time. You could get a big 
one. If there is a big one, like Katrina, for example, let me 
give you the worst case scenario. Couldn't food be flown in and 
distributed as easily as if it was in a place certain from 
which it also had to be distributed?
    Admiral Johnson. Madam Chairman, during the 2005 hurricane 
season, the impact of hurricanes was in fact simultaneous. The 
hurricanes came with frequency. We were responding in one 
community while a second community was being hit by a 
hurricane. So we felt, at the middle of the 2005 hurricane 
season, when they changed forecasts, that good decisions were 
made. At that point, our relationship with DLA was primarily 
one of a purchaser and a seller. DLA recognized the track that 
FEMA was on and came to us and offered their expertise. As Mr. 
Glasco mentioned, that led to a memorandum of agreement in 
March of 2006, and we are seeing the benefit of that agreement 
as we proceed now into the hurricane season for 2007.
    Last year, we began the season with 31 million meals in 
storage. This year, we begin the season with 12.8 million. Had 
we followed old FEMA practices, we would have spent another $70 
million perhaps buying meals. Now with our new practices and 
our partnership with DLA, we rely on DLA's storage. We have 
saved funds we would have spent in older practices.
    So I believe we are demonstrating the partnership and the 
experience that you referred to.
    Ms. Norton. You are all in the same Government. It is of 
some interest to me that DLA was used as, the way you would use 
a commercial enterprise, to get food, rather than to, at the 
same time, use their expertise. We are very confused, frankly, 
by the stories in the paper.
    Last Saturday, that was April 14th, there was a headline, 
FEMA doubles the estimate of lost meals to 13 million. And the 
logistics director, Eric Smith, is quoted as saying ``We don't 
have the rated facilities, management structure or the know-how 
to make sure that the meals and products that we buy are 
adequately managed to later meet approved standards for 
consumption.'' That is a very, very chilling thing to read in 
the newspaper. Don't have the rated facilities or management 
structure or know-how.
    Is that the current state of affairs, and if so, when was 
that understood? And was the Secretary informed?
    Admiral Johnson. Madam Chairwoman, that statement reflected 
in the paper last Saturday was an act or an assessment of where 
FEMA has been. In the months that------
    Ms. Norton. He says, we don't have. He didn't say, we 
didn't have.
    Admiral Johnson. That was an accurate reflection, and I 
think the context of that article was how did we get where we 
are. That statement reflects how we got where we are.
    Ms. Norton. He says, we don't have the rated facility. Do 
you have the rated facilities, management structure or know-how 
now?
    Admiral Johnson. Part of what you allowed us to do in the 
legislation in 2006 was a chance to restructure FEMA. Eric 
Smith, who stands with me to assist me today, he made that 
statement, I think on his 15th day at FEMA. Eric Smith 
represents where we are going in new FEMA in logistics. He 
comes from DLA background and more than 25 years of experience 
in logistics. FEMA has never had a director of logistics with 
that degree of capability.
    Ms. Norton. I tell you what. I think you probably had 
somebody who had some expertise who came in and just told the 
truth. I don't think you can take the ``we don't have.'' Let me 
ask you, how much food was spoiled? How much food specifically 
was spoiled?
    Admiral Johnson. It was about------
    Ms. Norton. And what amount of money?
    Admiral Johnson. Two point two million dollars worth of 
food was spoiled because we stored it in containers at a 
temperature that accelerated the decrease in shelf life. We had 
to take $2.2 million worth of food and basically dispose of it, 
because it had been held in containers that were not stored 
with shelter or temperature control devices.
    Ms. Norton. I am going to go to the Ranking Member. Where 
was that food held?
    Admiral Johnson. It was stored along the Gulf Coast, 
primarily I believe in Selma, Alabama.
    Ms. Norton. In facilities managed by whom?
    Admiral Johnson. Managed by FEMA. They were in FEMA's 
custody. We pre-position, every hurricane season we meet with 
States and meet the requirements. We pre-position------
    Ms. Norton. Did the managers of that facility understand 
what the shelf life was of the food?
    Admiral Johnson. We have certainly learned that lesson, 
Madam Chairwoman.
    Ms. Norton. Mr. Graves.
    Mr. Graves. With respect to the 2006 season, I think you 
guys had a tough call. You had two options. You either 
stockpiled food or you crossed your fingers and you don't 
stockpile food, cross your fingers and hoped that nothing 
happens. I am in the food business. I am a farmer, my family 
has been farming for six generations. One of the things that 
makes this Nation great is, we have the safest, most affordable 
and most abundant food supply in the world. All you have to do 
is look at export numbers to see that we feed the world. The 
United States feeds the world.
    We have a system today that, if there is a disaster 
anywhere around the world, whether it is a tsunami in southeast 
Asia or it is a war in Afghanistan and Iraq, we dump millions 
of these things, whether it is MREs or whatever the case may 
be, all over those countries, and we flood them. Those 
countries have no system whatsoever. And food has a shelf life. 
We waste millions of dollars of food in this Country in our 
schools every single year. For heaven's sake, in my 
refrigerator, I have stuff in there that used to be milk, and 
now it is cottage cheese. We waste food in this Country because 
we can take it for granted. We take our food supply for 
granted.
    So now, let's move on. I don't think that excuse the fact 
that we wasted some food, pre-positioning food and it is 
unfortunate, again, that that food supply goes to waste. But 
again, I don't know how you make any other decision. We know 
what would have happened had a disaster taken place and there 
wouldn't have been any food.
    You went to these folks, you all didn't have the MREs 
available at the time, because you are at war, war supplies. So 
you have to make a decision. So let's move on. Let's see what 
we are going to do in the future. You all are implementing the 
system.
    What I want to know, in your new logistics system, are you 
preparing right now for something, because obviously the 
hurricanes are the biggest disasters we have had. I think it is 
the largest natural disaster, at least Katrina was, that we 
have ever had in this Country. Is your logistics system, is it 
just going to focus on those areas, or are you also looking at 
the rest of the Country? I live in Missouri. Obviously 
everybody is concerned about the New Madrid earthquake that 
could possibly happen and the amount of damage and disaster 
that that is going to be. We obviously have problems in 
California. We know we have problems here and there.
    Are you setting this up now, or are you just trying to 
concentrate on the Gulf Coast at the moment so you can get it 
in place? I am just looking at how you are going to set this 
thing up and if you are going to be prepared for other areas.
    Admiral Johnson. Thank you for your question, sir. We are 
preparing disaster response preparedness, not just hurricane 
preparedness. We are doing that in partnership with DLA.
    As Mr. Glasco mentioned, we signed an IAA in March of 2006. 
We continue to expand that relationship, not in commodities, 
but in leadership and business practices and in uses of models 
and to help us prepare better. What we are doing right now, for 
example, we developed a total asset visibility system, where 
with our trailers, we put transponders aboard those trailers. 
Now we can track supplies as they move across the Country 
toward a disaster site. We now have an electronic management 
system for our warehouses that we did not have two years ago 
that helps us make sure we know what is in our warehouse and 
how old it is, and make sure we can rotate our own stocks and 
supplies through. A lot of that system was designed by working 
with DLA.
    We have a management system that allows us a singe point or 
place to order. That gives us order visibility and order 
management that FEMA did not have two years ago. All that 
technology will help us now manage a supply less than half of 
entering last year, because of becoming more efficient. We work 
with States to develop pre-positioned supplies and 
requirements, thinking about New Madrid fault and how would we 
respond to those events.
    So we are bringing people on, like Eric Smith and others, 
who can bring that expertise to FEMA, leveraged with our 
strategic partners, we will do a much better job of planning 
for those eventualities, and to be more efficient and effective 
in our supply system. Sharing the burden with DLA and others, 
not trying to do it all ourselves.
    Mr. Graves. Do you have enough personnel to do that, or are 
you going to bring on, are you going to have to expand your 
personnel? Are you going to be able to do this? You may even be 
at a position where you are going to be able to reduce.
    Admiral Johnson. I liked the term that you said. You said 
preparing. That gets back to Madam Chairwoman's point in that 
FEMA logistics system is not as robust as it needs to be. When 
you look at the President's request for fiscal year 2008, one 
specific line item in FEMA's vision is to expand to have a 
disaster logistics core competency. That requires additional 
investment.
    We are asking the Congress to support us this year to 
invest in more people and funds that will allow us to buy the 
kind of modeling and technological systems that can help us 
track and be more effective in managing our inventory.
    Mr. Graves. Thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Graves.
    Mrs. Capito.
    Mrs. Capito. Thank you, Madam Chair.
    Thank you, Mr. Johnson and Mr. Glasco, for coming today. If 
you could take me back to 2005, Katrina, what was the extent of 
the meal shortage? I am interested in the water supply, too, 
because there was a lot of post-Katrina reports about that. 
Could you give me a status of your assessment after Katrina in 
terms of the meals and the food supply?
    Admiral Johnson. During Katrina, we used all of FEMA's 
supplies of MREs. We were able to draw on DLA during Katrina. 
In a disaster, we have an ability to do a mission assignment. 
So we can mission assign other agencies to support us and to 
meet the requirements that exist in the disaster. So we were 
able to call on others to help us meet that requirements post-
Katrina.
    But in that hurricane season, that drove us, midway through 
the season, to think that we really needed more. We did not 
want to be caught short again. We were scrambling during 
Katrina itself. That caused us to buy these short shelf life 
meals.
    Mrs. Capito. But you were caught short in Katrina or not?
    Admiral Johnson. We used all of the supplies we had. So we 
were concerned about that. At that time, by circumstances, when 
we asked for MREs, we couldn't buy MREs with a longer shelf 
life, because they were at a war reserve limit, and we were 
forced to buy this meal. It had a short shelf life and we know 
that, but we also had an updated forecast, thinking more 
hurricanes would occur in 2005. When those did not occur, then 
we did have 13 million of these meals that were going to expire 
within nine months.
    That is how we entered the 2006 hurricane season, with that 
leftover inventory. And that was a very, very light season, and 
we didn't get a chance to use these. If we had had a hurricane, 
we would have been heroes. We would have responded with these 
and you would have been thanking us for that. But since there 
was no hurricane, we were caught short by a decision we made 
the prior year. That left us with a choice of disposing of them 
or donating them. That caused us to donate these to Second 
Harvest.
    Mrs. Capito. Thank you. I think it is a huge step in the 
right direction, the partnership that you have now with DLA and 
certain other partnerships that you have.
    In terms of the spoilage of the $2.2 million food that was 
thrown out, that is bad. I think all of us recognize that was a 
huge mistake. Hopefully that mistake won't be made again.
    I feel a little bit sympathetic toward FEMA and anybody who 
has to react to a disaster, when you have to rely on the 
weather predictions. We do this every week, flying back and 
forth, is it going to snow, is it going to storm. Sometimes it 
does what it says and sometimes it just doesn't. And I think 
certainly after what happened in 2005, an over-preparedness 
state of mind had to exist in FEMA and every single other 
emergency agency, State, Federal and local.
    So I think that hopefully lessons learned, big lessons and 
expensive lessons learned. I would also like to say in a 
positive sense that reacting and making sure that your overage 
in food went to Second Harvest, went to food banks across the 
Country, I am sure that it is an established relationship that 
you have, very smart. Also, they have a lot of expertise, 
obviously, with storing and maintaining food for long periods 
of time. If you have ever been to a food bank, I am sure you 
have, they are enormous facilities. So I think those 
relationships hopefully will be maintained and ongoing. Because 
we are going to run into this again.
    One last question. While FEMA is managing food supply, and 
I want to hear the water answer, because I probably cut you off 
on that. While you are managing the food supply and other 
things, you are also managing a lot of other things at the same 
time. Hopefully with this logistics expertise that you now 
have, you will be able to focus in more specifically on these 
particular areas. If you could address the water situation and 
how you handle that, I know it doesn't have the shelf life 
issue. But it certainly does in terms of maintaining the 
hydration and health of those who are afflicted in a disaster.
    Admiral Johnson. I don't think that we have had a problem 
in water. I will check and get back to you if we have. The good 
thing in water is we have, and I don't have the numbers for 
you, the volume of water that we have, it is significant. And 
it doesn't have the shelf life issue and it doesn't have the 
storage concerns, the same as MREs. It doesn't spoil. So we 
haven't seen a problem with that.
    But I will inquire further and provide information to your 
staff.
    Mrs. Capito. Mr. Glasco, let me ask you a question. Is DLA 
under the Department of Defense?
    Mr. Glasco. Yes, it is.
    Mrs. Capito. Where are you located?
    Mr. Glasco. Fort Belvoir.
    Mrs. Capito. All right. That is a big job you have. Thanks.
    Ms. Norton. Thank you, Mrs. Capito.
    Mr. Dent?
    Mr. Dent. Thank you, Madam Chair.
    Mr. Glasco, my question for you is, how does the DLA, how 
are you able to provide FEMA with a continuous inventory of 
fresh meals for disaster victims? How does that work?
    Mr. Glasco. Out of the lessons learned from the 2005-2006 
season, we have an agreement with FEMA. Well, first off, we 
maintain an MRE inventory of approximately 60 million meals 
located throughout the Country and the world. FEMA has bought 
access to 3 million meals out of that 60 million meals.
    What we are able to do with a volume of meals like that is, 
as we support the military with MREs, we are able to rotate out 
food to the military as they consume it, and maintain a fairly 
robust shelf life capability within that 60 million meal 
inventory. We purchase about 300,000 cases of MREs per month. 
Based on recent consumption averages, this is what the Military 
consumes on a monthly basis.
    Mr. Dent. How much is that?
    Mr. Glasco. Twelve per case. So 300,000 cases. So what that 
allows us to do is, as we acquire new MREs, we pull those into 
inventory, and we move other MREs out of the services for the 
consumption. You keep a fairly fresh stock of MREs available. 
And those are the ones that are available, out of that 60 
million plus that are available to FEMA at any given time, if 
they call for them.
    Mr. Dent. When you say a fresh stock, typically how long 
does an MRE stay on your shelves?
    Mr. Glasco. I would say probably about six months, as we 
rotate them in and out and receive new ones and issue out new 
ones to the military.
    (Subsequent to the hearing, Mr. Glasco revised the above 
six months to eighteen months).
    Mr. Dent. I have had MREs, but how long can one sit on a 
shelf, conceivably, if it is stored properly?
    Mr. Glasco. If it is stored properly, and properly is 80 
degrees Fahrenheit, they can sit on the shelf for three years. 
And they are extendable, if inspected, and can be extended 
beyond that if they are stored in environments that are even 
more cold than 80 degrees.
    Mr. Dent. So three years under good circumstances?
    Mr. Glasco. Yes, sir.
    Mr. Dent. And if it's not under good circumstances, 
considerably less time?
    Mr. Glasco. Yes, sir.
    Mr. Dent. What other services is DLA providing to FEMA 
currently, beyond MREs?
    Mr. Glasco. We have worked with FEMA to put fuel contracts 
in place in two of their regions to provide bulk fuel support, 
if required. We have in the 2006 season provided medical items 
to outfit their caches. We have provided some minimum repair 
parts capability. But the primary support from us has been in 
the area of food, the MREs. We do, at FEMA's request, will send 
individuals over to work with them in advance of contingencies 
or disasters.
    Mr. Dent. So maybe you answered the question I am about to 
ask. But if we were to have another disaster similar to 
Katrina, what types of services are you prepared to provide to 
FEMA?
    Mr. Glasco. In the food world, we are prepared to provide 
them access to the 3 million MREs that they have paid for. 
Should they make more funds available, they can have access to 
additional MREs, if they choose to. Mr. Johnson talked about 
transition from MREs to commercial MREs. We have vehicles in 
place that allow us to surge and begin acquiring commercial 
MREs for FEMA as well if they desire those.
    Beyond those, if it is determined that there is a need for 
shelf stable type meals for immediate consumption, we have 18 
vendors standing by, ready to surge and be able to produce in 7 
days and be able to provide shelf stable meals as well. 
Likewise, should FEMA desire medical item support from DLA, we 
have contracts in place that provide access to medicine and 
surgical types of equipment. That is available to FEMA to 
access should they choose to do that.
    Likewise, as I mentioned, we have two fuel contracts in 
place, and we are working to put others in place. But we have 
two in the southeast and the Gulf area, two contracts in place 
to provide bulk fuel support.
    We also operate something that we refer to as the Defense 
Reutilization and Marketing System. On occasion, and this is 
just a matter of timing, we may have items that are being 
considered for re-use within the Department of Defense, for 
example, generators. If they are available at the time that a 
contingency occurs, FEMA has access to that as well.
    Mr. Dent. So fuel, generators, food and medical supplies?
    Mr. Glasco. And some repair parts if they choose to.
    Mr. Dent. Thank you, Madam Chair. I yield back.
    Ms. Norton. Thank you, Mr. Dent.
    Did I understand, Mr. Glasco, you to say that you now have 
a contract not only for food, for the MREs, but for medical 
supplies, generators? Would you tell me what else FEMA is 
already contracted to get from DLA?
    Mr. Glasco. Madam Chairwoman, as I indicated, food items 
for sure, bulk petroleum and------
    Ms. Norton. How about medical supplies?
    Mr. Glasco. Medical supplies. We have contracts in place to 
support the Department of Defense, and FEMA can access those 
when they need to.
    Ms. Norton. So FEMA, do you intend, do you now use this 
supply system or do you use another system for medical supplies 
or the other items that Mr. Glasco spoke of?
    Admiral Johnson. Madam Chairwoman, our primary source of 
supply is through DLA. Through the interagency agreement that 
we signed in March, we have access to all the items that Mr. 
Glasco has mentioned.
    We also have separate contracts with private sector 
suppliers. So we have a lot of flexibility. But we primarily 
use DLA for those supplies.
    Ms. Norton. Did you already have those contracts for 
commercial food that was brought when DLA could not supply 
MREs?
    Admiral Johnson. We did. We had some contracts, but what we 
have now I think are stronger partnership with DLA and a better 
sense of those contracts, of which ones are of greater provence 
with DLA versus the private sector. So while you focused on the 
commodities that we get from DLA, as Mr. Glasco mentions, they 
send people to work on our staff to help us in framing where we 
are going in our new logistics.
    Ms. Norton. As you can see from my questions, I have 
greater confidence in DLA, at least at this time, than I do in 
FEMA. Therefore I am interested in the partnership and in as 
much relationship as possible. For example, I think that in 
buying supplies from DLA, you probably get them for a better 
price than if, because they buy in even larger bulk than if you 
went to a private contractor. Is that true?
    Admiral Johnson. That is not completely true. In the 
commercial meal, we have a relationship with the same supplier 
that supplies------
    Ms. Norton. Well, wait a minute. Do you do commercial 
meals?
    Mr. Glasco. We have that ability. The commercial meals that 
we have talked about for the 2005 season, DLA contracting 
vehicle was provided or used to acquire those.
    Ms. Norton. And the private sector can do better, you can 
do better with contracts on your own with for DLA for the 
commercial meals?
    Admiral Johnson. In some cases, we can. Because we are not 
the only purchaser of those meals, either. So there is a large 
market for those. And in a relationship, again, we approach 
this in partnership with DLA, even discussing these issues, 
what we should buy from them, what we should not. So we have 
other contracts available.
    Ms. Norton. That is very important, because again, they 
ought to know.
    What about an even more perishable item, like ice? That was 
a big issue in Katrina.
    Admiral Johnson. We are currently on the street now with a 
competitive bid, seeking a supplier of ice. Our primary partner 
in ice is the Corps of Engineers. They currently have a 
contract that can provide a volume of ice just about anywhere 
we need in the Nation within 24 hours. So we are relying on 
Corps of Engineers as our primary partner for ice, then we are 
competing a contract now for a direct relationship with a 
vendor.
    Ms. Norton. Have you gotten any advice from GSA, which has 
an extensive distribution system as well?
    Admiral Johnson. We work extensively with GSA over a far, 
broad range of issues, from transportation items to all sorts 
of supplies.
    Ms. Norton. I am talking about logistics and distribution.
    Admiral Johnson. We do not, I don't believe we use their 
distribution system.
    Ms. Norton. I am not suggesting that. I am only suggesting 
that the agency obviously needs outside help, and that that 
outside help is probably available within the Federal 
Government itself. That is all I am suggesting. There are large 
agencies that have been doing this for some time, well, FEMA 
has been doing it for some time.
    Admiral Johnson. We seek their advice. The GSA also is a 
strong partner with FEMA.
    Ms. Norton. I am asking you, Mr. Johnson, to provide the 
Committee with information regarding contracts for distribution 
of items after a disaster, beyond any that are beyond DLA. We 
would like to know the name of the vendor, the quantity, the 
value of the contract, its terms and conditions. And we will 
assume they are competitive contracts in keeping with existing 
law.
    In what amount, in what amount, a number of meals 
thankfully went to people who needed them and you have had that 
relationship for some time. How many millions of dollars of 
meals went to Second Harvest?
    Admiral Johnson. It was about 13 million meals, valued at 
$70 million, was the donation we made to Second Harvest.
    Ms. Norton. As pleased as I am to see these meals go to 
people who need them, the notion of spending so much money in 
this way was not what the taxpayers intended, here. I don't 
agree with my good friend to my left, who operates as a farmer 
and knows how the weather is and sometimes it is too much and 
too little. Nobody can tell you what farmers can. Sometimes 
there is a drought, sometimes there is no season.
    The difference is, it seems to me, that you don't grow 
anything. We depend upon you for expertise. And therefore, 
unlike a too much/too little in the ordinary course of events, 
one would not expect, frankly, over-supply. That would bother 
me. That would bother me tremendously if we said, look, 
taxpayers, you saw what happened in Katrina, you don't want 
that again. Tell you what, we are going to buy more food than 
you can shake a stick at, so there.
    The point is that there are, the alternatives are not too 
much or too little if there are professionals who are guiding 
the agency when it comes to logistics. So what I am interested 
in is this new system, and here I am using your jargon, total 
asset visibility, where the private sector also will play a 
role, or has played a role in developing something called the 
total asset visibility. I hate Government jargon. Nobody knows 
what it means, even people in the Government.
    But I believe that that is an important, those are 
important words, and are related to this issue. So would you 
please explain to the Subcommittee what role the private sector 
would play, now knowing that you have a good relationship with 
DLA in developing this so-called total asset visibility 
program?
    Admiral Johnson. The good news, Madam Chairwoman, is that 
is not a Government, bureaucratic term. That is a term of art 
within logistics systems as well as supply chain management and 
those concepts we are bringing into FEMA. So for example, in 
total asset visibility, what that means to us is you want to 
have visibility of your asset end to end, you want to know what 
you have, where you have it, where it is and how quickly it is 
getting to the site that you need it.
    Ms. Norton. Who is developing that?
    Admiral Johnson. We have outside business consultants who 
have helped us develop the system. We have taken advice from a 
range of all the companies that deal in logistics, draw them 
from best practices and even the practices with DLA to help 
develop this system.
    Ms. Norton. So you have a business consultant working with 
you now on knowing what asset, where your assets are? And what 
you need?
    Admiral Johnson. Yes, ma'am, we do. And when we provide 
this list of contracts to you, we will identify a number of 
companies who we have contracted services who are helping us to 
develop this system.
    Ms. Norton. Did FEMA offer any of these meals to Government 
agencies before offering them to Second Harvest?
    Admiral Johnson. We have an MOU with Second Harvest, and 
the MOU was developed in part to respond to this type of 
scenario. So rather than go out to other Government agencies, 
we followed through with the MOU that we have.
    Ms. Norton. I am sorry, you have an existing contract with?
    Admiral Johnson. With Second Harvest.
    Ms. Norton. So how was Second Harvest chosen? What about 
schools? What about hospitals? I don't even know the food is 
fit for these institutions, but normally we would look for, if 
we are dealing with Government funds, we would look to 
Government operations to see if any of these------
    Admiral Johnson. In large part, one of the reasons for 
Second Harvest is they are a large organization. They will 
actually come and pick up the supplies. We are talking about 
900,000 meals. They come in truckloads. So it would be very 
difficult to distribute truckloads of meals to individual 
schools. Second Harvest really is a very efficient community 
service organization to handle that volume of donated meals.
    Ms. Norton. What other areas of logistics concern have you 
at FEMA identified?
    Admiral Johnson. We have a wide range of logistics concerns 
in FEMA. As we develop the 21st century logistics system, not 
only will it address commodities, but it also will address our 
housing, how many short-term houses in terms of travel trailers 
and mobile homes should we have and how should we distribute 
those housing units. So that is another large part of 
logistics, is dealing with our housing program.
    Ms. Norton. Mr. Johnson, we had a hearing on the 
distribution of trailers. I am asking this question, because we 
wanted the agency to work, to work with the recreational 
vehicle association. Our concern was the logistics on trailers 
seemed to be heartbreaking, because on the one hand, they are 
stored, and on the other hand, there are people who need 
trailers. Some of those who needed trailers turned out not to 
be located in the kind of disaster area that FEMA services. 
Complicated questions, if you want to deal with logistics, got 
raised because I said to staff I wanted to have the industry 
brought in. And what was most enlightening was to hear the 
industry speak about what dumping these trailers would do to 
particular small jurisdictions where the only industry may be 
the trailer industry. Because in smaller towns, people actually 
live in these trailers.
    What can you tell us about any progress you have made on 
the distribution of those trailers or allowing access to, I am 
sorry, disposal of trailers or allowing access to trailers to 
people who might need them, like the Governor of Utah, who was 
prepared to buy some of them until somebody threw some 
regulation in his face which again, some spokesman found, well, 
after all, maybe we can supply some trailers after the fact and 
after it hit the newspaper that they had in fact refused the 
trailers in the first place? I am trying to figure out what 
would happen now, if, for example, the Governor of another 
State tomorrow came forward and said, we are not a FEMA area, 
but we do have a dozen people who need trailers and we are 
prepared to buy them, what would happen, Mr. Johnson, in that 
case today?
    Admiral Johnson. Madam Chairwoman, as you know, FEMA can 
provide trailers when the president declares a disaster and 
there is a requirement for temporary housing. Recently, there 
has been a number of disasters, tornadoes and other disasters--
----
    Ms. Norton. I am talking about new and used trailers 
already in your storage.
    Admiral Johnson. I am trying to draw the distinction. You 
mentioned areas that FEMA does not cover. Well, there are no 
areas in the Nation FEMA does not cover, but yet there are 
events------
    Ms. Norton. They are not designated as a disaster area, 
sir.
    Admiral Johnson. Yes, so in------
    Ms. Norton. Therefore, in Arkansas, we found people that 
didn't have access to your services, because there is a certain 
amount of damage you have to have before you call on the 
Government.
    Admiral Johnson. The most recent example is Colorado. About 
three weeks ago, they had weather in Colorado that devastated 
several small towns, yet they did not qualify for a 
presidential declaration. The State asked FEMA to provide 
trailers, and they acknowledged that they would pay the cost of 
transporting those trailers. We met the requirement, we 
provided more than 50 trailers. They were very satisfied with 
the quality of those trailers. They actually picked them up at 
Hope, Arkansas, at our storage facility, transported them to 
Colorado. Then they own them, they provide them to their 
citizens, they installed them and it worked out to be a very 
agreeable------
    Ms. Norton. Mr. Johnson, that is interesting and I am very 
pleased to hear that. Has FEMA issued any notice to governors? 
You have all these trailers stored. Some of them you may well 
need, and I am sure somebody at FEMA knows how much you ought 
to have. But has anybody at FEMA, since you made them readily 
available in Colorado, made the calculation as to how many of 
these trailers might be made available to Governors or others 
who are public officials? I mean, I ask this question the same 
way I ask the question about does the food get offered to 
Government agencies first. This suggests that there may be some 
people, or sorry, some jurisdictions willing to take any excess 
trailers off your hands who are public officials, in States and 
counties around the Country, if they knew that was available.
    Are there trailers that you think might be sufficiently in 
excess of what you need that that might be appropriate?
    Admiral Johnson. Madam Chairwoman, we owe your staff and 
will comply shortly, we owe a briefing on our trailer disposal 
policy. We are in the process of finalizing a rewrite of our 
policy that reflects now provisions that were contained in the 
Post-Katrina Reform Act. So we will provide that to your staff 
shortly.
    Just in quick order, for a new travel trailer or mobile 
home, one of the pieces of legislation required that we first 
offer them to tribal organizations before they are made 
available to anyone else.
    Ms. Norton. Have you done that?
    Admiral Johnson. We have not done that yet. We are working 
with the Department of Interior and the Bureau of Indian 
Affairs to finalize our------
    Ms. Norton. I mean, you have had these trailers ever since 
Katrina. Tribal organizations would be among those, because 
they live often in rural areas. They might well by this time 
have taken those off of FEMA's hands.
    Admiral Johnson. We are working, given the legislation that 
passed in October, we are about to finalize and brief your 
staff on how we will implement that legislation.
    Ms. Norton. What legislation?
    Admiral Johnson. The Post-Katrina Reform Act.
    Ms. Norton. Yes, you think the legislation, it is only 
pursuant to that legislation that you can offer these trailers?
    Admiral Johnson. That legislation gave us new restrictions 
or new guidance into how we should dispose of trailers. So 
given the legislation, we are now writing the policy of how we 
will implement that legislation.
    Ms. Norton. Okay, tribal organizations. Did it also mention 
State and county organizations?
    Admiral Johnson. It did not mention specifically those, no, 
ma'am. But as we now prioritize and provide an avenue to both 
new trailers that are in excess of our required inventory, and 
access for used trailers, then those will likely be available 
for State and local------
    Ms. Norton. You would think that the legislation does 
authorize that.
    Admiral Johnson. It does.
    Ms. Norton. I think that, so, how many trailers exist now 
in your supply, among your assets, that are in excess of those 
you think you might need?
    Admiral Johnson. I think, well, we look at our trailer 
population in three groups. We have those that are in use now, 
of which there are more than 84,000 being used in communities 
around the Country, primarily------
    Ms. Norton. I want to discount those. I am only interested 
in those being stored at Government expense.
    Admiral Johnson. We think there may be as many as 20,000 
new units, I am sorry, about 9,000 new units, perhaps 20,000 
overall, some used, that can be made available to other 
organizations. We will pursue, as I mentioned before------
    Ms. Norton. How much does it cost to store those trailers 
at this time?
    Admiral Johnson. I don't recall the number off------
    Ms. Norton. I would like that figure. We would like those 
trailers moved if you think you don't need them, as soon as 
possible.
    Admiral Johnson. Yes, ma'am.
    Ms. Norton. Government regulations take time. But to the 
extent that taking time on a Government regulation is costing 
taxpayers money, that ought to be given priority. Those 
trailers have been a scandal, just sitting there. They weren't 
made available. There needs to be notice, as soon as the 
regulations are done, I ask that you brief the staff within one 
week. As soon as the regulations are done, it seems to me that 
the first thing we ought to do, that the FEMA ought to do, is 
issue a notice saying, for sale, as it were, there are trailers 
here. But you have to come get them. People would be glad to do 
that. And the taxpayers wouldn't be paying a storage expense 
for trailers that can be used probably in almost every State.
    Go ahead.
    Admiral Johnson. Yes, ma'am. You make very good points. 
Believe me, the States are very well aware of the opportunity 
to come to FEMA. We use the National Emergency Management 
Association, which has all the emergency management of the 50 
States and territories------
    Ms. Norton. Mr. Johnson, the States did come to FEMA in 
Arkansas and were turned down. That was after the legislation 
was passed. So I am asking you not to depend upon the 
``relationship'' you have with States. If there are some 
trailers for sale, let people know it.
    Admiral Johnson. Yes, ma'am.
    Ms. Norton. And please let them know it as soon as 
possible, to get that off of our budget.
    Admiral Johnson. We will work very hard in that direction.
    Ms. Norton. Thank you very much.
    I want to say that, while both of you are here, in a real 
sense, the closest relationship FEMA can get, not only for what 
appears to have been the former relationship, which is buyer-
purchaser, but purchaser of experience and advice, the more 
confidence we will have as you set up a new system using this 
visibility whatever jargon is used.
    Mr. Glasco, are you consulting with Mr. Glasco as this 
system is set up, this system I just asked you about called the 
total asset visibility? Do you have that system?
    Mr. Glasco. What we use for products that FEMA acquires 
from us is a Department of Defense system called Defense 
Satellite Tracking System. The acronym is DSTS. What it allows 
us to do is when items are transported from a DLA facility or 
from a vendor who supports DLA, we contract the movement of 
that until we exchange custody with FEMA. And we can track and 
tell them where the items are on the highway as they move to 
their destinations designated by FEMA.
    Ms. Norton. What other agencies does DLA have contracts or 
relationships with besides FEMA? I mean agencies outside FEMA?
    Mr. Glasco. GSA, we work very well with GSA. For example, 
GSA uses a warehouse complex in Kuwait that we operate. They 
previously had not availed themselves of that capability. They 
use this warehouse we have in Kuwait. I would say probably that 
the two larger organizations that we work with are FEMA and 
GSA, outside of DOD.
    Ms. Norton. Mr. Johnson, are you working at all with Mr. 
Glasco or DLA in your work that you are about in trying to 
install total asset visibility? Or are you depending entirely 
upon your consultant?
    Admiral Johnson. We are consulting with DLA on all of those 
systems.
    Ms. Norton. I just think you can save us all some mistakes 
if an agency that is already doing it can look at it and give 
it a kind of second look, your whole new logistics system.
    Let me finally say, before I close the hearing, we received 
an extremely long, extremely troubling letter from one of the 
unions in your agency. I am used to receiving letters from 
unions, and they have a different view of matters than an 
agency head. To be clear with you, I have run a Federal agency, 
had to work with unions, so I know how to receive these letters 
and read them. Very long, it is very troubling, it is very 
different from letters I have received from unions before. It 
is extremely detailed and it describes hiring problems, 
personnel problems. It goes well beyond the normal kinds of 
complaints from unions, who often do have valuable inside 
knowledge, but obviously see the agency from your own point of 
view. Are you aware of this letter?
    Admiral Johnson. I am aware of the letter, Madam Chair.
    Ms. Norton. Do you have any comments you would like to make 
at this time concerning the letter?
    Admiral Johnson. I would just say that we have received the 
letter informally. It was not sent to us. We think there are a 
number of elements in the letter that perhaps merit review. We 
think there are also elements in the letter that seem very 
short on facts. But we get concerned when we see a letter that 
has those types of issues. We will take a look at the letter, 
we will evaluate every element and find which of those really 
needs to be explored.
    What I would say is that FEMA has a strong relationship 
with our unions. Both Director Paulison and I meet with our 
labor management partnership council every quarter. This 
headquarters union has opted out of that process, and so does 
not meet with all the other unions.
    Ms. Norton. Why did it opt out of the process?
    Admiral Johnson. It was the union president's choice to opt 
out of that process. That is the only union president that does 
not meet inside the labor management partnership council. Dave 
Paulison has worked with unions his entire professional life 
and has had great relationships with unions. We feel very 
strongly at FEMA that we have experienced people, we feel very 
strongly that we have a zero tolerance for racial or gender 
bias. And we believe that we are managing the agency with every 
degree of care that you would expect.
    Ms. Norton. I am going to obviously be replying to the 
union. I am going to ask the union whether this conglomerate 
process or not, to meet with you and you to meet with them, I 
don't think it does any good to have a non-communicative 
relationship with a major union in your headquarters operation. 
Again, I say, that was not fact-finding, it was their view of 
issues. I am a grown-up lady when it comes to receiving such 
letters.
    What was unusual about the letter was its length, its great 
detail and what everyone thinks of the letter. It does indicate 
very serious morale problems that I believe the agency needs to 
attend to. In that way I am going to ask that you seek a 
meeting with the headquarters union and I am going to ask the 
headquarters union to be open to such a meeting.
    Admiral Johnson. Yes, ma'am.
    Ms. Norton. I thank you very much. It has been very helpful 
testimony. There is a lot of work to do. I have put FEMA on 
notice, the agency is an agency in process of building. The 
whole notion of a new FEMA does not sit well with the public or 
with the Subcommittee when we see these repeated stories of 
breakdowns that frankly give the appearance of an agency that 
is just starting up.
    You may know that on both sides, on both sides of this 
Committee, the chairs and ranking members favored removing FEMA 
from the Department of Homeland Security. I can't identify 
these problems as having locational roots. Therefore, they are 
especially serious, because they have seen FEMA, perhaps 
wherever it is, has the kinds of problems you would expect if 
you were saying, here is a new agency, we expect you to make 
mistakes.
    What is most troubling to the Subcommittee is that Katrina 
does not seem to have left lessons in place that are being 
followed. If it has, it leaves lessons like, you need some 
food, over-supply them food. It leaves lessons like, whatever 
the oceanic service says must be gospel, therefore, make sure 
that you have as much food, including perishable food, on hand. 
And by the way, forget about it until it is time for it to 
expire and then throw it away.
    You have to understand, I am putting myself in the head of 
the public. And from the point of view of the public, that 
seems to be the, that seems to be what you have taken from 
Katrina, that there is a way to do it if you do too much of it. 
When it comes to the trailers, I am very bothered by the fact 
that you haven't swiftly, swiftly gotten rid of as many of 
those trailers as possible.
    So as far as I am concerned, and since I have been chair, 
there are nothing but black eyes for the new FEMA. I would like 
to see a new face and believe that you don't want to go around 
talking about a new FEMA and then have this kind of stuff in 
the newspapers. Yes, sir, I want to hear from you. Go ahead.
    Admiral Johnson. I believe that you and the Committee and 
the public will judge FEMA by our performance.
    Ms. Norton. And that is what we have done with trailers and 
with food, sir.
    Admiral Johnson. And I believe if you look at what FEMA did 
in the tornadoes in Florida and Georgia and Alabama, what we 
have done in floods, right now, Administrator Paulison is in 
Maine looking at those who are impacted by the nor'easter. He 
will be in New York and New Jersey on Monday.
    I believe that you are seeing the new FEMA in the field. We 
are responding much more quickly than we have in the past. Our 
people are moving forward. We are leading forward in 
establishing partnerships, business partnerships. I believe 
that we are showing new FEMA.
    As you know, from your experience, to judge an agency by 
the Washington Post or other newspapers, who only write bad 
articles, there are very few articles about the good things----
--
    Ms. Norton. But they were true articles. The fact is that 
$2 million worth of food had to be thrown down the drain. The 
fact is that most of the food had to be given away. The fact is 
that nobody calculated how much food would or would not be 
needed.
    Admiral Johnson. And as I pointed out, this driving down 
the road looking through the rear-view mirror, as we look 
toward the 2007 hurricane------
    Ms. Norton. So that was rear-view, that bothers me, in 
other words, planning could not have, in fact, resulted, even 
given what we have said here about short-term contracts, 
planning, better planning, it would not have resulted in better 
action from FEMA with respect to the food that was thrown away.
    I mean, if FEMA doesn't even do debriefing, if FEMA is not 
even self-critical, but it sees all this as Monday morning 
quarterbacking------
    Admiral Johnson. Madam Chairwoman, that is an unfair 
characterization.
    Ms. Norton. You said rear-view mirror, sir.
    Admiral Johnson. I am saying------
    Ms. Norton. That is what got my attention.
    Admiral Johnson. To be quite direct, Madam Chairwoman, if 
you continue to say that we are planning for the 2007 the way 
we planned for 2006, that is incorrect.
    Ms. Norton. No, that is wrong. You didn't prepare for the 
way. You over-prepared for it. As if there weren't experts on 
the ground who could have informed you, even at DLA.
    Admiral Johnson. In 2007, where we sit today, we have less 
than half the inventory that we had last year. That represents 
good planing and a resistant------
    Ms. Norton. I understand that, sir. I am talking about the 
planning post-Katrina that resulted in the loss of taxpayers-
funds. Obviously, if what you are saying is after every huge 
mistake we do good planning, this Subcommittee is here to tell 
you, that is unacceptable. The point is to plan so that you do 
not have to throw away $2.5 million worth of food or give 
millions of dollars even to a good cause.
    And sir, in terms of what you have done with the small 
hurricanes, we were very pleased to see that. But you must 
understand that nobody will think there is a new FEMA until you 
have been tested by a major disaster. So don't throw some small 
hurricanes, some of which were not even disasters, under the 
FEMA statute at us. What we are looking at and what we are 
going to have hearings on is the possibility that you could 
have a great earthquake in San Francisco and a major hurricane 
here, given global warming, on the East Coast. Now, that is 
going to be your test. And you have got to be sufficiently 
self-critical so that FEMA asks itself every day, are we ready 
for that test, rather than, there were a few small tornadoes, 
we weathered that, so what is there to complain about.
    Admiral Johnson. We are very self-critical, and we are 
preparing very well for the upcoming hurricane season, and we 
will be prepared, as we are now, for New Madrid and for 
earthquakes on the West Coast. We have been very self-critical 
and we are making significant changes inside FEMA. I welcome 
the opportunity to meet with you or your staff to talk about 
the many, many changes across the entire breadth of FEMA that 
Dave Paulison is bringing to the people of our Nation.
    Ms. Norton. We will be having a hearing on FEMA's 
preparedness for truly large disasters. We think we are in a 
period of the truly unpredictable. We believe that there are 
climatic changes that will befuddle even the best of our 
scientists. I for one would have had a whole lot less problems 
with FEMA after Katrina if there had been even minimal kinds of 
preparedness. What we saw at Katrina was the total breakdown of 
the agency to understand. It was, of course, that it was beyond 
what any agency had a right to expect, or we had the right to 
expect from any agency.
    But nobody can now claim after multiple reports that this 
agency was ready for anything remotely like a huge disaster. 
The reason that some of us take great lessons from that, 
certainly people like me, who are also on the Homeland Security 
Committee, is that we believe that Katrina was a dress 
rehearsal for a terrorist disaster, except for one thing. 
Nobody will forecast the terrorist disaster, whereas there at 
least was an accurate weather forecast about Katrina.
    So you will not find the Subcommittee anything but 
disappointed and critical as we hear repeated failures in the 
agency. We will expect you to be proactive, yes. But we will 
expect there to be experts in the agency, apparently there are 
some in DLA, who can help the agency recover. I very much 
appreciate your being here. If you have anything further to 
say, I would be glad to hear it. But you need to know just how 
stringent is going to be the oversight of FEMA. We believe that 
FEMA is the most troubled agency still in the Federal 
Government.
    Admiral Johnson. We welcome your review.
    Ms. Norton. Thank you so much, sir.
    [Whereupon, at 10:35 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4802.003
    
    [GRAPHIC] [TIFF OMITTED] T4802.004
    
    [GRAPHIC] [TIFF OMITTED] T4802.005
    
    [GRAPHIC] [TIFF OMITTED] T4802.006
    
    [GRAPHIC] [TIFF OMITTED] T4802.007
    
    [GRAPHIC] [TIFF OMITTED] T4802.008
    
    [GRAPHIC] [TIFF OMITTED] T4802.009
    
    [GRAPHIC] [TIFF OMITTED] T4802.010
    
                                    

</pre></body></html>
